January 20, 2009

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

SUBJECT: Audit Report – Service Continuity at the Information Technology and
         Accounting Service Centers for Fiscal Year 2008
         (Report Number IS-AR-09-003)

This report presents the results of our audit of service continuity at the xxxxx,
xxxxxxxxx, xxx xxx xxxxx, xxxxxxxxxx, Information Technology and Accounting Service
Centers (IT/ASC) (Project Number 08RD001IS004). The objective of this audit was to
determine whether service continuity procedures are in place to minimize the risk when
unexpected events occur and to ensure critical operations continue without
unreasonable interruption. We performed this self-initiated review as part of the fiscal
year (FY) 2008 information systems audit of general controls at the U.S. Postal
Service’s IT/ASCs. See Appendix A for additional information about this audit.

Conclusion

Overall, we believe management adequately developed the infrastructure and service
continuity processes and procedures to maximize the availability of critical Postal
Service operations. The Postal Service is undergoing significant changes in the
computing infrastructure, including virtualization and replication. They have made
progress building a replication process between the xxxxx xxx xxx xxxxx IT/ASCs and
have established testing schedules for critical and sensitive applications. To further
minimize the risk of service disruption, management could improve processes for xxx-
xxxx xxxxxxx xx xxxx tapes and procedures for facility recovery program updates at the
xxx xxxxx IT/ASC.

UNIX Tape Off-Site Storage

xxx xxx xxxxx xx/xxx xxx xxx xxxxxx xxxx xxxxxx xxxxx xxxxxxxx xxxxx xxx xxxx. This
occurred because management did not assign responsibilities for these procedures
after organizational changes. San Mateo personnel believed that xxxxx administered
off-site tape storage procedures while the Eagan personnel were unaware of this
responsibility. xxxxxxxx xxxxxxx xx xxxx xxxxx xxx xxxxxxxx xxxxx xxxxxxxxxx xxxx
xxxx xxxxxxxxxxxx xxx xxxxxxxx xx xxx xxxxx xx xxxxxxxx. See Appendix B for our
detailed analysis of this topic.




                                   Restricted Information
Service Continuity at the Information Technology and                                                    IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008


We recommend the Vice President, Information Technology Operations, direct the
Manager, Information Technology Computing Services, to:

1. Designate the personnel responsible for administering the backup process for the
   xxx xxxxx Host Computing Services Center.

2. Implement procedures to ensure xxxx backup tapes are stored off-site.

Facility Recovery Plan Update

The Facility Recovery Plan was not current for the xxx xxxxx IT/ASC. This occurred
because management did not assign responsibilities for these procedures after
organizational changes and xxx xxxxx personnel believed that xxxxxxx Management
Support Service Center was responsible for updates. An updated plan could help avoid
confusion during personnel evacuation in an emergency situation and help resume
business operations as quickly as possible. See Appendix B for our detailed analysis of
this topic.

We recommend the Vice President, Information Technology Operations, direct the
Manager, Information Technology Computing Services, to:

3. Clarify the responsibility for maintaining and administering the Facility Recovery Plan
   for the xxx xxxxx Information Technology and Accounting Service Center.

4. Update the Facility Recovery Plan for the xxx xxxxx Information Technology and
   Accounting Service Center.

Advanced Computing Environment Server Contingency Planning

Audit trails of backup data for xxxxxxxx xxxxxxxxx xxxxxxxxxxx xxxxx servers did not
clearly show that the data for the servers were stored off-site. Further, applications
running on these servers were not tested in a disaster recovery simulation. Specifically,
the xxx server we selected for review at the xxxxx IT/ASC was backed up locally, but
audit trails did not clearly show that the data for the server xxxx xxxxxx xxxxxxxx. xxx
xxx xxx xxxxxxx xx xxxxxxxx xx xxx xxx xxxxx xxxxxx, xxxxx xx xx xxxxxxxx xxxx xxxxxx
xxxx xxxx xxxxx xxxxxx xxxxxxxx. This occurred because the Postal Service is
undergoing significant changes from stand-alone physical servers to a virtualization1
and replication environment. Routinely duplicating or backing up data files to off-site
storage prevents or minimizes the damage to automated operations that can occur from
1
  Virtualization is a software technology that lets one computer do the job of multiple computers by sharing the
resources of a single computer across multiple environments. Virtual servers and virtual desktops allow hosting of
multiple operating systems and multiple applications locally and in remote locations, freeing users from physical and
geographical limitations. The benefits include energy savings, lower capital expenses due to more efficient use of
hardware resources, high availability of resources, better desktop management, increased security, and improved
disaster recovery processes.



                                                          2
                                               Restricted Information
Service Continuity at the Information Technology and                         IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008


unexpected events. Performing periodic testing of application backup data helps
ensure application and data recoverability in the event of a disaster. We are not making
a recommendation because management is currently deploying a replication process
that will address the audit trail issue. In addition, because of our review, management
recognized the need for application recovery testing and has re-prioritized resources to
meet their testing schedules.

Management’s Comments

Management agreed with all four recommendations. In response to recommendation 1,
management stated that the Storage Management group within Host Computing
Services is responsible for all backup processes in xxxxx xxx xxx xxxxx. In addressing
recommendation 2, management stated that the offsite storage process was developed
in accordance with a Sarbanes-Oxley requirement. Management will provide
supporting documentation on the process by March 31, 2009. Further, in response to
recommendation 3, management stated the Manager, Management Support Service
Center, is responsible for maintaining and administering the xxx xxxxx Facility Recovery
Plan. Finally, for recommendation 4, management stated that an updated Facility
Recover Plan is currently available. Management considers actions completed on
recommendations 1, 3, and 4. See Appendix C for management comments, in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to each of the recommendations, and their corrective actions
should resolve the issues identified in the report.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                     3
                                          Restricted Information
Service Continuity at the Information Technology and                        IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, Acting
Director, Information Systems, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Ross Philo
    H. Glen Walker
    Harold E. Stark
    Joseph J. Gabris
    Katherine S. Banks




                                                     4
                                          Restricted Information
Service Continuity at the Information Technology and                                               IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

During FY 2006, management purchased mainframe disaster recovery equipment and
upgraded the mainframe operating system at the xxxxx xxx xxx xxxxx IT/ASCs. The
new equipment enabled the xxx facilities to electronically send replicated production
mainframe files directly to storage devices located at the xxxxx xxxx, making each site a
xxxxxxxxxx disaster recovery location xxx xxx xxxxx. Application testing followed
installation of the mainframe replication process.

Management began deploying a similar replication process for the distributed platforms
for xxxx xxx xxxxxxx servers. However, management faced challenges building the
infrastructure for these distributed platforms, which resulted in delays in the application
disaster testing. As an interim measure, the xxxxx xxx xxx xxxxx IT/ASCs backed up
some production data to tape media and stored it xxxxxxxx xx xxxxx xxxxxx xxxxxxxxxx.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine if service continuity procedures are in place
to minimize the risk when unexpected events occur, and to ensure critical operations
continue without interruption or can be resumed within a reasonable amount of time.

The scope of our review included reviewing continuity of operations planning and testing
for Postal Service facilities. We also reviewed disaster recovery testing for critical
Postal Service facilities, workgroups, and computer applications residing on mainframe
and distributed platforms, xxxxx xxxxxxx xxxx xxx xxxxxxx xxxxxxx xx xxx xxxxx xxx xxx
xxxxx xxxxxxx.

The audit covered the following primary platforms used in the Postal Service’s
computing environment.

    •   xxxxxxxxx (xxxx2 xxx xxxxxx xxxxxxxxx3
    •   xxxx xxxxxxxxxxx
    •   xxxxxxx xxxxxxx xxxxxxxxx xxx xxxxxxxxxxxxxx xxxxxxxx
    •   xxxxxxxxx xxxxxxxxx x xxxxx xxx xxxxxxx4




2
  xxxxxx xx xxx xxxxxxxxxxxxx xxxxxxxx xxxxxxxx xxxx™x xxxxxxx xxxx xxx xxxxx xxxxxxxxxxx xxxxxxxxx xxxxxx.’
3
  xxxxxx xxxxxxxx xxxxxx xx xxxxxxxxx xxxxxxxx xxxxxxxx xxxx xx xxx xxxx xxxxxxxxx xxxx xxxx, xxx xxx xxxxxxxxx
xxx xxxxxxxxx xxxxxxxxxx. xxxxxxxx xxxxxxx xxx xxxxxxxxx xxxxxxxx xxxxxxxx xxxxxxt xxxxx xxxxxxxx xxxxxxxxx
xxxxxxxxx xxx xxxxxxxx xxx xxx xxxxxxxxx xxxxxxxxxx xxxxxxx xxxxx xx xxxx xxx xxxxxxxxxx xxx xxxxxxxxxx.
4
  xxx xxx xxxxxxxx xxxx xx xxx xxxxxxxxx xxxxxxxxxxx. xxxxxx xxxxxxxx xxxxxxxx xxxx xxxxxxxxx xx xxx xxxx
xxxxxxxxxxx.


                                                       5
                                            Restricted Information
Service Continuity at the Information Technology and                                                IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008


We judgmentally selected several applications5 for review on these platforms. Criteria
used to make our selections included production status, financial relevance, sensitivity
or criticality, platform, and location. Table 1 provides a summary of the applications
reviewed.

                   Table 1: Applications Selected for Review by Platform

       xxxxxxxx              xxxxx xxxxxxxxxxxx                     xxx xxxxx xxxxxxxxxxxx
       Mainframe             OMAS; ChangeMan                        EMRS
       UNIX                  eAwards                                EMRS
       Windows               OMAS                                   SRM
       Databases             eAwards (Oracle)                       EMRS (Oracle)
                             ChangeMan (DB2)                        PTS (DB2)

To accomplish our objective, we interviewed Postal Service facility officials, analyzed
Postal Service policies and procedures, and tested related internal controls. To
determine if service continuity plans were complete and tested, we reviewed facility,
workgroup, and application recovery plans. We also analyzed documentation related to
the testing of these plans at each xxxxxx. To determine if the Postal Service was
backing up critical production files and servers, we reviewed system-generated reports
and observed back-up tape handling procedures at the xxxxx xxx xxx xxxxx xxxx
xxxxxxxxx xxxxxxxx xxxxxxx.

We conducted this audit from April 2008 through January 2009 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We used manual and automated
techniques to analyze the computer-processed data. Based on the results of these
tests and assessments, we generally concluded the data were sufficient and reliable to
use in meeting the objective. We discussed our observations and conclusions with
management officials during the audit and on December 10, 2008, and included their
comments where appropriate.




5
  We selected the following applications: Official Mail and Accounting System (OMAS), Electronic Awards System
(eAwards), Electronic Marketing Reporting System (EMRS), Serena ChangeMan, Sales Resource Management
(SRM), and Product Tracking System (PTS).


                                                        6
                                             Restricted Information
Service Continuity at the Information Technology and                                             IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008


PRIOR AUDIT COVERAGE

                                      Final
                    Report           Report        Monetary
Report Title        Number            Date          Impact                  Report Results
Disaster           IS-AR-07-018     September          N/A         In general, the Postal Service
Recovery                            14, 2007                       established and updated continuity
Testing for                                                        plans and procedures relating to
Critical Postal                                                    essential business functions at the
Service                                                            IT/ASCs. However, we provided
Applications at                                                    recommendations for implementing the
the xxxxx,                                                         disaster recovery infrastructure to test
xxxxxxxxx xxx                                                      all critical midrange applications;
xxx xxxxx,                                                         developing a schedule documenting
California                                                         when they will conduct full operational
Information                                                        recovery tests for critical applications;
Technology and                                                     and prioritizing testing of mainframe
Accounting                                                         disaster recovery infrastructure to
Service Centers                                                    complete full operational recovery tests
for Fiscal Year                                                    of all critical mainframe applications.
2007                                                               Management established the schedule
                                                                   for testing applications; however,
                                                                   actions for the remaining
                                                                   recommendations have not been
                                                                   completed.
Mainframe          IS-AR-07-002     November           N/A         Overall, Postal Service administrators
Service                             16, 2006                       adequately implemented the service
Continuity                                                         continuity programs. However, we
Planning and                                                       recommended testing of the disaster
Testing at the                                                     recovery equipment at the Eagan and
xxxxx, xxxxxxxxx                                                   xxx xxxxx facilities. This
xxx xxx xxxxx,                                                     recommendation was subsequently
California                                                         completed and closed.
Information
Technology and
Accounting
Service Centers




                                                     7
                                          Restricted Information
Service Continuity at the Information Technology and                                               IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008


                               APPENDIX B: DETAILED ANALYSIS

xxxx Tape Off-Site Storage

xxx xxxxx xxx xxx xxxxx xxxxxxx xxxx xx xxxxxxxxxx xxxx xxxxxxx xx x xxxxxxx xxxxxx,
xxxxx xxxx xxxx xxxxxxxxx xxxxxxx xxxxxxxxxxxx xxx xxxxxx xx xx xxxx xxxxx xxx
xxxxxx xxxxxxxx xx xxxxx xxxxxx xxxxxxxxxx. xxx xxxxxx xxxxxxx xxxx x xxxxxx xx
xxxxxxxxx xxx xxxxx xxxxx xxxxxxx xxxxx xx xxxx xxxxx xxx xxx xxxxx xxxxx. Postal
Service staff is responsible for ejecting and preparing tape media for storage on a
scheduled basis.

At the xxx xxxxx xxxx xxxxxxxxx xxxxxxxx xxxxxx, we sampled an xxxx application
server xxxxxxxxxxxxxxx and traced the audit trail to ensure the data was backed up and
stored xxxxxxxx. xx xxxxx xxxx xxxxxx xxxxxxx xxxxxxxxx xxx xxx xxxxxxx xxx
xxxxxxxxx xx xxxxxxx xxxxxxx xxxxx xxx xxxxxx xxxxxxx xxx xxxxxxxx xxxxxxx. We
learned that xxxx xxxxx xxx xxx xxxx xxxxxx xxxxxxxx xxxxx xxx xxxx. Postal Service
personnel noted there are nearly xxx xxxx servers at the xxx xxxxx xxxxxx which include
some critical applications. Management immediately initiated action to assess the
overall backup environment.

Facility Recovery Plan Update

The xxx xxxxx Facility Recovery Plan (FRP) did not contain current information. We
reviewed various documents relating to service continuity and disaster recovery
planning. Postal Service policy6 requires the FRP to include information about the
process of restoring a facility to a condition so it meets appropriate personnel, business
unit, and safety requirements; and making the facility ready to support business
functions and computer programming support. xxxxxxx FRP included the detailed
information in the Occupant Emergency Plan. xxx xxxxx did not have the same
document, but included similar information in the FRP. However, this document was
last updated in February 2006 and contained obsolete information. Management was
unable to determine the ownership and responsibility for updating the document.




6
 Handbook AS-805, Information Security, Section 12-4.4.2, Facility Recovery Plan, dated March 2002 (updated with
Postal Bulletin revisions through November 23, 2006).



                                                       8
                                            Restricted Information
Service Continuity at the Information Technology and               IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                     9
                                          Restricted Information
Service Continuity at the Information Technology and               IS-AR-09-003
 Accounting Service Centers for Fiscal Year 2008




                                                    10
                                          Restricted Information
